                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                              BOSTON REGIONAL OFFICE PROCUREMENT
                                              OF JOB CORPS CENTER OPERATOR AND
                                              SERVICE PROVIDERS IN PUERTO RICO




                                                                    Date Issued: September 29, 2006
                                                                    Report Number: 26-06-002-01-370
U.S. Department of Labor
Office of Inspector General                              September 2006
Office of Audit
                                                         Boston Regional Office Procurement of
BRIEFLY…                                                 Job Corps Center Operator and Service
                                                         Providers in Puerto Rico
Highlights of Report Number: 26-06-002-01-370,
to the National Director of Job Corps.
                                                         WHAT OIG FOUND
WHY READ THE REPORT                                      We found that the allegations were not
Contracts for Job Corps center operators, outreach       substantiated. In addition, we did not find former
and admissions providers, and career transition          DOL Job Corps employees working for the
specialists account for a majority of the                incumbent contractor/offeror and the Regional Office
approximately $1.5 billion Job Corps annual budget.      complied with the intent of applicable laws and
Procurement for those services is handled through        regulations, except for not promptly providing
the Regional Offices of Job Corps. A complaint was       offerors who did not meet the competitive range the
filed against the Boston Regional Office, alleging the   basis for their being excluded from further
office engaged in abusive procurement practices          consideration for the contract.
that resulted in the award of a contract with a 5-year
value of over $80 million on a noncompetitive basis
in violation of Federal procurement laws and
regulations.
                                                         WHAT OIG RECOMMENDED
                                                         We recommended that the National Director of the
                                                         Office of Job Corps:
WHY OIG DID THE AUDIT                                    •   Update the Job Corps Procurement
                                                             Compendium to include the Federal Acquisition
Our audit objectives were to determine (1) if the
                                                             Regulation requirement that the notice to
allegations of procurement abuse brought against
                                                             offerors not meeting the competitive range is to
the Boston Regional Office were valid and
                                                             be provided “promptly.”
substantiated, (2) whether there are any former DOL
Job Corps employees working for the incumbent
contractor/offeror, and (3) whether the Boston           •   Ensure the Regional Director of the Boston
Regional Office complied with applicable laws and            Regional Office of Job Corps issue written
regulations in the procurement included in the               guidelines for the office to comply with the
hotline complaint.                                           Federal Acquisition Regulation requirement to
                                                             promptly provide an offeror whose score did not
                                                             meet the competitive range the basis for why
                                                             they were excluded from further consideration
READ THE FULL REPORT                                         for a contract.
To view the report, including the scope,                 The National Director of Job Corps responded that
methodology, and full agency response, go to:            the agency concurred with the first recommendation.
http://www.oig.dol.gov/public/reports/oa/26-06-          However, she stated that because contracting
002-01-370.pdf                                           authority was being transferred from the Job Corps
                                                         Regional Directors to OASAM Contracting Officers,
                                                         the second recommendation is no longer applicable.
                                                         She further stated that during scheduled training for
                                                         the OASAM Contracting Officers, the issues
                                                         identified in the report will be emphasized.
                                                   Boston Regional Office Procurement of Job Corps Center
                                                             Operator and Service Providers in Puerto Rico



Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

    1. Allegations that the Boston Regional Office Used Abusive Procurement
       Practices Were Not Valid and Not Substantiated ............................................ 8

    2. Former Employees of Job Corps Are Not Working for the Incumbent
       Contractor/Offeror for the Puerto Rico Job Corps Center ............................ 13

    3. The Boston Regional Office Followed Applicable Procurement Laws and
       Regulations Except for Not Promptly Providing the Complainant/Offeror
       the Basis for Explaining Why the Complainant/Offeror's Bid Did Not Meet
       the Competitive Range and that the Complainant/Offeror Was No Longer
       Being Considered for the Puerto Rico Job Corps Contract ......................... 13

APPENDICES ............................................................................................................... 17
    A. Background ...................................................................................................... 19

    B. Objectives, Scope, Methodology and Criteria ............................................... 21

    C. Acronyms and Abbreviations.......................................................................... 23

    D. Agency Response ............................................................................................ 25




U.S. Department of Labor—Office of Inspector General                                                                       1
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         US Department of Labor—Office of Inspector General
                                                            Report Number: 26-06-002-01-370
                                      Boston Regional Office Procurement of Job Corps Center
                                                Operator and Service Providers in Puerto Rico



Executive Summary
We completed an audit of allegations concerning the Request for Proposal to operate
three Puerto Rico Job Corps centers and outreach, admissions, and career transition
services for Puerto Rico and the Virgin Islands. In January, 2006, the Request for
Proposal resulted in an $80 million contract award (two base years and three option
years).

The complaint alleged Boston Regional Office Job Corps officials engaged in five
abusive procurement practices that impacted the contract award. These were:

   1. The Boston Regional Office Contracting Officer and Contract Specialist were
      together with executives of the Incumbent Contractor’s (offeror) at all times from
      May 3 through May 5, 2005 (Pre-Proposal conference and site visits) and
      traveled with the executives in the same vehicles.

   2. The Contracting Officer did not provide the answers to questions during the pre-
      proposal conference.

   3. The Contracting Officer and Contract Specialist did not provide information
      requested by the complainant/offeror’s that the complainant/offeror believed to be
      releasable under FOIA.

   4. The complainant/offeror was not allowed an administrative hearing (after the
      complainant/offeror’s offer was rejected) and information regarding the price
      offered by the competition was withheld from the complainant/offeror.

   5 The Boston Regional Office did not provide the complainant/offeror an
     explanation of how the competitive range was established and information about
     the competitive range.

Based on the above allegations, we developed an audit objective to determine whether
the Regional Office used abusive procurement practices as alleged in the complaint. In
addition to our objective regarding the five allegations, we added an objective to answer
the complainant’s question of whether there are any former Department of Labor Job
Corps employees working for the incumbent contractor/offeror. As part of our work in
determining whether the allegations were valid, we included an objective to determine
whether the procurement process and award of the contract in January, 2006, complied
with applicable procurement laws and regulations. We limited our audit to the specific
procurement identified in the allegation and, therefore, did not audit all procurement
actions of the Boston Regional Office.




U.S. Department of Labor—Office of Inspector General                                       3
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico



Results
Based on the fact the five allegations were not substantiated, we found the Boston
Regional Office did not use abusive procurement practices related to those allegations
in procuring the services for the Puerto Rico contract.

In addition, we did not find evidence that former employees of Job Corps are working for
the incumbent contractor/offeror.

Overall, we concluded the Boston Regional Office complied with the intent of applicable
procurement laws and regulations. However, we identified the following areas of the
Federal Acquisition Regulation (FAR) for which improvement in the office’s procedures
are needed:

     •    promptly notifying the offeror who was excluded from further award
          consideration because of not meeting the competitive range, and

     •    providing the basis (major weaknesses) for why the offeror was excluded.

FAR provides a Federal agency the ability to limit offerors responding to Request for
Proposals to those whose proposals meet minimum scores (competitive range) based
on technical evaluations by a procurement panel. The regulation requires a Federal
agency to “promptly” notify offerors if their proposals do not meet the competitive range
and include the basis for why the offeror was excluded. Job Corps applies the
requirements of FAR and the Department of Labor Acquisitions Regulations (DOLAR)
through the use of the Job Corps Procurement Compendium (Compendium). The
Compendium is used to assist Regional Office staff in properly documenting required
procurement decisions and activities by providing examples and models that can be
customized for each procurement. We found that although the Compendium does
include the requirement for notifying excluded offerors because of not meeting the
competitive range, it does not include a reference to “prompt” notification. While the
Regional Office notified the complainant/offeror that the company’s proposal did not
meet the competitive range, the notification was made 2 months after the proposal was
evaluated and a competitive range established. We concluded 2 months does not meet
the regulation’s intent for prompt notification.

The Compendium identifies the basis for exclusion that should be included in the
notification as “major weaknesses” in the proposal. The complainant/offeror’s
notification did not have detail information that could be used to understand why their
proposal was not sufficient to meet the competitive range.




 4                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico




Recommendations

We recommend the National Director of Job Corps:

1. Update the Job Corps Procurement Compendium to include the Federal Acquisition
   Regulation requirement that the notice to offerors not meeting the competitive range
   is to be provided “promptly.”

2. Ensure the Regional Director of the Boston Regional Office of Job Corps issues
   written guidelines for the office to comply with the Federal Acquisition Regulation
   requirement to promptly provide an offeror whose score did not meet the competitive
   range the basis for why they were excluded from further consideration for a contract.



Agency Response
The National Director for the Office of Job Corps responded that the agency concurs
with the first recommendation and will implement the recommendation. However, she
stated that because contracting authority was being transferred from the Job Corps
Regional Directors to OASAM Contracting Officers, the second recommendation is no
longer applicable. She further stated that during scheduled training for the OASAM
Contracting Officers, the issues identified in this report will be emphasized.


OIG Conclusion
Based on the response, the recommendations are resolved. Although we continue to
consider the second recommendation applicable, it can be closed once the OIG is
provided evidence Regional Directors no longer have contract authority for awards to
Job Corps center operators, outreach and admissions providers, and career transition
service providers.




U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 26-06-002-01-370
                 Boston Regional Office Procurement of Job Corps Center
                           Operator and Service Providers in Puerto Rico




    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                  U.S. Department of Labor—Office of Inspector General
                                       Report Number: 26-06-002-01-370
                                      Boston Regional Office Procurement of Job Corps Center
                                                Operator and Service Providers in Puerto Rico




U.S. Department of Labor                               Office of Inspector General
                                                       Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Esther Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

Based on allegations included in a hotline complaint, the Office of Inspector General
(OIG) audited information related to the Boston Regional Office’s Request for Proposal
(RFP) to operate three Puerto Rico (PR) Job Corps centers and outreach, admissions,
and career transition services (O/A, CTS) for Puerto Rico and the Virgin Islands.
The contract was awarded in January 2006, subsequent to the OIG receiving the
complaint. The total value of the award was over $80 million, including three option
years.

The following table presents each allegation and our conclusion on whether the
allegation was substantiated.

                                                                                 AUDIT
                          ALLEGATION                                        CONCLUSION
   1. The Boston Regional Office Contracting Officer and                  Not substantiated
      Contract Specialist were together with executives of the
      Incumbent Contractor’s (offeror) executives at all times
      from May 3 through May 5, 2005 (Pre-Proposal
      conference and site visits) and traveled with the
      executives in the same vehicles.
   2. The Contracting Officer did not provide answers to       Not substantiated
      questions during the pre-proposal conference.
   3. The Contracting Officer and Contract Specialist did not Not substantiated
      provide information requested by the complainant/
      offeror that the complainant/offeror believed to be
      releasable under FOIA.




U.S. Department of Labor—Office of Inspector General                                          7
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico



  4. The complainant/offeror was not allowed an                    Not substantiated
     administrative hearing (after the complainant/offeror’s
     offer was rejected) and information regarding the price
     offered by the competition was withheld from the
     complainant/offeror.
  5. The Boston Regional Office did not provide the                Not substantiated
     complainant/offeror an explanation of how the
     competitive range was established and information
     about the competitive range.


The complainant/offeror also questioned whether former DOL Job Corps employees
were working for the incumbent contractor/offeror. We did not find evidence of former
DOL Job Corps employees working for the incumbent contractor/offeror. Further, the
Regional Office followed applicable procurement laws and regulations except for not
promptly providing the complainant/offeror details explaining why the
complainant/offeror’s bid did not meet the competitive range, and, therefore, the
complainant/offeror was no longer being considered for the contract.

Our audit scope, methodology, and criteria are detailed in Appendix B.


Objective 1 – Are the Allegations of Procurement Abuse Brought Against the
Boston Regional Office Valid and Substantiated?

Results – Allegations that the Boston Regional Office Used Abusive Procurement
Practices Were Not Valid and Not Substantiated.
Based on our determination that the five allegations brought against the Boston
Regional Office of Job Corps are not valid and not substantiated, we found that the
Regional Office did not use abusive procurement practices in the areas related to the
allegations. The allegations and the results related to each allegation are presented
below.

a. The Boston Regional Office Contracting Officer and Contract Specialist were
   together with executives of the Incumbent Contractor’s (offeror) executives at
   all times from May 3 through May 5, 2005 (Pre-Proposal conference and site
   visits) and traveled with the executives in the same vehicles.

     The allegation is not substantiated.

     The allegation implies that the Contracting Officer and Contract Specialist separated
     themselves from other offerors, except executives of the incumbent contractor,
     during the 3 days of the pre-proposal conference and site visits, including traveling
     exclusively with executives of the incumbent contractor. The minutes of the pre-
     proposal conference and site visits included information that shows an overall
 8                                    US Department of Labor—Office of Inspector General
                                                         Report Number: 26-06-002-01-370
                                             Boston Regional Office Procurement of Job Corps
                                           Center Operator and Service Providers in Puerto Rico

   interaction by the Contracting officer and Contract Specialist with all participants
   during the conference and site visits. The Job Corps Procurement Compendium
   (Compendium), a Job Corps document that applies the FAR and Department of
   Labor Acquisition Regulations (DOLAR) to assist Regional Office staff in properly
   documenting required procurement decisions and activities, requires the incumbent
   contractor to provide logistics (transportation) for all participants at site visits during
   the procurement process.

   The Contracting Officer told the auditors that the incumbent contractor was required
   to provide vans to transport those in attendance for one site visit and that any
   prospective bidder could have ridden with anyone else involved in the walk-through.

   We also found that the Contracting Officer and Contract Specialist rented their own
   vehicle during the 3 days they were involved in the conference and site visits.

   We concluded the Contracting Officer and Contract Specialist did not show
   favoritism to the incumbent contractor during the pre-proposal conference and site
   visits by excluding other participants or traveling exclusively with the incumbent
   contractor.

b. The Contracting Officer did not provide answers to questions during the pre-
   proposal conference.

   The allegation is not substantiated.

   Based on information obtained during the audit, we found the Regional Office policy
   for questions on an RFP provides for written questions before the pre-proposal
   conference and questions and answers during the pre-proposal conference. Using
   information provided by the complainant/offeror and official records maintained by
   the Regional Office, we found questions asked before or during the pre-proposal
   conference were answered by contracting officials in accordance with their policy
   and instructions provided in the Request for Proposal.

   The Compendium states that during the pre-proposal conference, answers to written
   questions and answers to additional questions posed by the conference participants
   will be provided. Although names of participants who asked questions are not
   included in the meeting minutes, we found the minutes of the pre-proposal
   conference did include questions by participants that were shown as answered
   during the conference.

   We concluded the Contracting Officer did provide answers to questions asked during
   the pre-proposal conference.




U.S. Department of Labor—Office of Inspector General                                       9
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico

c. The Contracting Officer and Contract Specialist did not provide information
   requested by the complainant/offeror that the complainant/offeror believed to
   be releasable under FOIA.

   The allegation is not substantiated.

   In letters dated May 13, 2005, and June 1, 2005, the complainant/offeror requested
   the following information from the Contract Specialist:

       1. Current salaries and positions (executive, administrative, skill and not skill,
          academic and vocational personnel) for the Puerto Rico and Virgin Island
          Job Corps centers.

       2. Fringe benefits currently paid to employees per center.

       3. Organizational Chart per center
       .
       4. List of subcontractors (including professional services) per center and cost of
          current contracts.

       5. Incentive stipend currently paid per students and maximum stipend allowed
          (residential and nonresidential).

       6. Puerto Rico Workforce Investment Plan Goals.

       7. Current approved budget for the General and Administrative expense
          accounts for the three centers of Puerto Rico and the Virgin Islands.

   The Contract Specialist sent a letter to the complainant/offeror dated May 20, 2005,
   responding to the requested information. Responses provided for each question are
   as follows:

       •   Contained in amendment 1 is the National Office Staff Compensation Report
           which provides you with the common position titles and the salary ranges for
           each position. It is incumbent upon the bidder to propose those positions that
           they feel will best lead to an efficient operation of the centers. The current
           salaries and positions located at the centers is not releasable, this information
           is proprietary in nature to the current contract holder.

       •   As with question 1 this information is not releasable, this information is
           proprietary in nature to the current contract holder.

       •   As with the above two questions this information is proprietary in nature.

       •   This information is proprietary in nature to the current contract holder and as
           such is not releasable.
 10                                    US Department of Labor—Office of Inspector General
                                                         Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico



       •   This information is located and available in the Job Corps Requirements
           Handbook (PRH) in Chapter 5. A link is provided in the PRH, this link will
           allow you to download a copy of the current PRH.

       •   Enclosed is a copy of the current Puerto Rico Workforce Investment Plan
           Goals.

   Question 7 is from the complainant/offeror’s letter of June 1, 2005, and came after
   the response was provided by the Contract Specialist. However, we conclude the
   requested information would not be releasable based on the same proprietary rules
   used for questions 1– 4.

   The information shown as not releasable because of its proprietary nature is
   protected from disclosure under rules included in the Job Corps Compendium. For
   example, under section 2.27, Freedom of Information Requests, the Contracting
   Officer is not to make available to any person information protected from disclosure
   by the deliberative process privilege under FOIA Exemption 5. It also states that the
   Contracting Officer is not to make available to any person information that is deemed
   to be proprietary. This section states that FOIA Exemption 5 covers information
   used by the agency to make vital contractual decisions for the proper administration
   of a center. The information requested relates to the incumbent contractor/offeror’s
   personnel salary structure, company benefit policies, financial agreements with
   subcontractors, and company internal management structure. The Boston Regional
   Office determined that this type of information is proprietary and, therefore, not
   subject to public release.

   Although FAR 15.201 encourages exchanges of information from the earliest
   identification of a requirement through receipt of proposals, it states that such
   exchanges of information must be consistent with procurement integrity
   requirements of FAR 3.104. This FAR section includes a prohibition on disclosing
   such contractor information as bid, proposal, or source selection before the award of
   a Federal agency procurement contract.

   The Contracting Officer and Contract Specialist did not improperly withhold
   information from the complainant/offerors because the information requested was
   not releasable (under FOIA) in accordance with DOL and FAR guidelines.

d. The complainant/offeror was not allowed an administrative hearing (after the
   complainant/offeror’s offer was rejected) and information regarding the price
   offered by the competition was withheld from the complainant/offeror.

   The allegation is not substantiated.

   The Job Corps Compendium requires regional contracting officials to notify
   offerors (in writing) when their bid does not meet the competitive range. In


U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico

   addition, the notification should provide an explanation why the offeror’s bid
   did not meet the competitive range, and afford the offeror an opportunity for a
   debriefing. FAR 15.505 (c) allows the Contracting Officer to decide whether
   the debriefing will be oral or written. The complainant/offeror was notified on
   September 14, 2005, that a telephone debriefing could be requested, either
   pre-award or post-award. However, we did not find evidence in the contract
   file that the complainant/offeror requested a debriefing.

   FAR 15.306 d (2) provides for discussions with offerors who are within the
   competitive range in order to ensure the government’s best interest are
   served. However, the complainant/offeror’s bid was not within the competitive
   range, and as a result, we concluded a mandatory discussion with the
   complainant/offeror was not required.

   The Regional Office properly withheld bids of other offerors from the
   complainant/offeror in compliance with FAR 3.104-3(a)(1). This FAR section
   specifically prohibits the disclosure of bids or proposal information before the
   award of a Federal agency procurement contract to which the information
   relates.

   We concluded that the Regional Office followed the Compendium in providing
   the complainant/ offeror an opportunity to discuss their proposal and properly
   withheld bid information on other offerors from the complainant/offeror.

e. The Boston Regional Office did not provide the complainant/offeror an
   explanation of how the competitive range was established and information
   about the competitive range.

   The allegation is not substantiated.

   Although the Regional Office did not provide the complainant/offeror an
   explanation of how the competitive range was established or the actual
   competitive range that was established, this was not against the rules
   provided in the FAR or the Compendium. FAR 15.503 (a)(1) and Section
   2.12 of the Compendium require the Regional Office to provide an offeror who
   did not meet the competitive range details explaining the basis for the
   exclusion. The Job Corps Compendium does not provide specific details of
   what constitutes information that should be discussed in the notification, but
   rather states “major weaknesses found in the proposal of an unsuccessful
   offeror” as an example of the details needed. The Job Corps Compendium
   Section 2.27 states that information such as ratings used by the agency to
   make vital contract decisions on the proper administration of centers is
   protected from disclosure by FOIA Exemption 5. The competitive range
   determination uses technical scores of all offerors and would, therefore, be
   excluded from disclosure.


 12                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico

   In addition, FAR 2.101 (5) and (7) cite technical evaluations of proposals and
   competitive range determinations that identify proposals that have a
   reasonable chance of being selected for award of a contract as “source
   selection information.” FAR 3.104-3(a)(1) states that contractor bid or
   proposal information or source selection information shall not be disclosed
   before the award of a Federal agency procurement contract.

   The Boston Regional Office was not required to provide the complainant/
   offeror an explanation of how the competitive range was established or the
   actual competitive range that was used to award the contract. DOL
   guidelines do not identify “competitive range” information as releasable to an
   offeror.

Objective 2 – Are There Any Former DOL Job Corps Employees Working for the
Incumbent Contractor/Offeror?

Results – Former Employees of Job Corps Are Not Working for the Incumbent
Contractor/Offeror for the Puerto Rico Job Corps Center

Based on our analysis of the staffing resources included in the incumbent
contractor/offeror’s proposal, we did not find evidence that former DOL Job Corps
employees are working for the incumbent contractor/offeror. Boston Regional Office
officials stated they did not know of any former DOL Job Corps employees who are
working for the incumbent contractor/offeror. In addition, the complainant/offeror could
not provide any information that would provide evidence of this potential conflict of
interest.

Objective 3 – Did the Boston Regional Office Comply with Applicable Laws and
Regulations for the Procurement Included in the Hotline Complaint?

Results – The Boston Regional Office Followed Applicable Procurement Laws
and Regulations Except for Not Promptly Providing the Complainant/Offeror the
Basis for Explaining Why the Complainant/Offeror’s Bid Did Not Meet the
Competitive Range and that the Complainant/Offeror Was No Longer Being
Considered for the Puerto Rico Job Corps Contract

The Job Corps Compendium is designed to be used by Job Corps Regional Office
personnel to apply the procurement policies and procedures included in the FAR and
DOLAR. The Compendium is used by the Regional Office to ensure proper
procurement of center operators and outreach and admission and career transition
service providers.

The Compendium requires the Regional Office to notify offerors if their bid does not
meet the competitive range. In addition, Job Corps contracting officials are required to


U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico

provide offerors information explaining why their bid did not meet the competitive range.
We found two issues with the notification process that did not comply with the
requirements found in FAR. First, FAR requires a prompt notification to those not
meeting the competitive range and second there is a requirement to provide the basis
for why the offeror did not meet the competitive range.

We found that the Regional Office did not notify the complainant/offeror until 2 months
after the range was determined and it was documented that the offeror did not meet the
required competitive range. Although FAR did not provide a definition of what is
considered a prompt notification, we believe 2 months would not satisfy the intent of the
requirement. Moreover, the Compendium does not address the “prompt notification”
requirement, even though it is included in the FAR.

The regional Contracting Officer stated that because of the large number of deficiencies
in the complainant/offeror’s proposal, evidenced by the the complainant/offeror’s score
of 26.16 out of a possible 100 points, to explain why the proposal did not meet the
competitive range would have taken too much time and would not have been an
inefficient use of staff resources. However, by not following the requirements of FAR,
the Regional Office did not ensure sufficient information was available to the
complainant/offeror in a timely manner that could have been used to understand why
the complainant/offeror was excluded from participating further in a competition for a
federally funded project.

While the outcome of this contract award would not have been affected by properly
notifying the complainant/offeror that the complainant/offeror’s proposal did not meet the
competitive range, we believe the notification requirement will foster a competitive
outsourcing environment for Job Corps services contracting. FAR expresses the need
to work closely with both the winning and losing offerors. By providing prompt and
meaningful notifications to offerors whose proposals do not fall within the competitive
range, Job Corps can maintain more positive relationships with potential service
providers and ensure the competitive process will continue to provide the best value for
the government.

Recommendations:

We recommend the National Director of Job Corps:

1. Update the Job Corps Procurement Compendium to include the Federal Acquisition
   Regulation requirement that the notice to offerors not meeting the competitive range
   is to be provided “promptly.”

2. Ensure the Regional Director of the Boston Regional Office of Job Corps issues
   written guidelines for the office to comply with the Federal Acquisition Regulation
   requirement to promptly provide an offeror whose score did not meet the competitive
   range the basis for why they were excluded from further consideration for a contract.


 14                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico

AGENCY RESPONSE

The National Director for the Office of Job Corps responded that the agency concurs
with the first recommendation and will implement the recommendation. However, she
stated that because contracting authority was being transferred from the Job Corps
Regional Directors to OASAM Contracting Officers, the second recommendation is no
longer applicable. She further stated that during scheduled training for the OASAM
Contracting Officers, the issues identified in this report will be emphasized.

OIG CONCLUSION

Based on the National Director’s response, the recommendations are resolved.
Although we continue to consider the second recommendation applicable, it can be
closed once the OIG is provided evidence Regional Directors no longer have contract
authority for awards to Job Corps center operators, outreach and admissions providers,
and career transition service providers.



Elliot P. Lewis
August 30, 2006




U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 16                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico




Appendices




U.S. Department of Labor—Office of Inspector General                                     17
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 18                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico


                                                                              APPENDIX A
BACKGROUND

Job Corps is a national program carried out in partnership with states and communities
to assist eligible youth who need and can benefit from an intensive program, operated in
a group setting in residential and nonresidential centers, to become more responsible,
employable and productive citizens. The Boston Regional Office oversees Job Corps
Region I which trains and educates youth at 20 training facilities throughout the
Northeast and in the Caribbean, including Puerto Rico and the Virgin Islands.

Center operators, outreach and admissions providers, and career transition service
providers are required to be selected in almost all cases based on a full and open
competitive process. The procurement process for those services is administered by
Job Corps Regional Offices using the procurement requirements found in FAR and
DOLAR. The requirements of FAR and DOLAR have been included in the Job Corps
Compendium which is designed to assist Regional Office staff in properly documenting
required procurement decisions and activities by providing examples and models that
can be customized for each procurement.

The OIG received a complaint from one of the companies that proposed on the RFP to
operate three Puerto Rico Job Corps centers and provide outreach and admissions and
career transition services for Puerto Rico and the Virgin Islands. Although the contract
noted in the allegation was not awarded when the complaint was received by the Office
of Inspector General, it was subsequently awarded in January, 2006. The total value of
the contract for 5 years, including 3 option years, amounted to over $80 million.




U.S. Department of Labor—Office of Inspector General                                     19
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 20                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico



                                                                               APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


Objectives
Our audit objective was to determine whether the Boston Regional Office used abusive
procurement practices in procuring an operator for three Puerto Rico Job Corps centers
and outreach and admission and career transition services for Puerto Rico and the
Virgin Islands as alleged in the complaint. In addition, we added an objective to answer
the complainant’s question of whether there are any former DOL Job Corps employees
working for the incumbent contractor. As part of our work in determining whether the
allegations were valid, we included an objective to determine whether the procurement
of and contract with the winning offeror complied with applicable procurement laws and
regulations.

Scope
Our audit covered the procurement time frame from the posting of the RFP April 21,
2005, to the award of the contract on January 31, 2006. Our audit was limited to
examining the procurement for one contract; therefore, we did not consider the overall
procurement process in place and used by the Boston Regional Office for all contracts
handled during the period covered. In addition, we did not consider all internal controls
in place at the Regional Office that would affect the overall operation of the Regional
Office. Our consideration of internal control relates only to the policies and procedures
used by the Regional Office in the procurement of the Puerto Rico center operator and
the Puerto Rico and Virgin Islands outreach and admissions and career transition
services. We performed our audit at the Regional Office of Job Corps in Boston,
Massachusetts. Our audit was performed in accordance with Generally Accepted
Government Auditing Standards.

Methodology

To accomplish our audit objectives, we reviewed applicable criteria, including the
provisions on Federal Acquisition Regulation and the Job Corps Procurement
Compendium. We examined the official contract documentation for the subject
procurement, other documentation related to travel by the Contracting Officer and
Contract Specialist and documentation provided by the complainant/offeror. We did not
travel to Puerto Rico but rather interviewed the complainant by telephone. Job Corps
Regional Office officials were interviewed onsite in the Boston Regional Office. We
examined the contract subsequently awarded based on the procurement identified in
the hotline complaint. In determining the merits of the allegations, we used the
assumption that the allegation would not be substantiated unless we found or were
provided documented information that could be used as conclusive evidence of the
Regional Office manipulation of the procurement process in violation of procurement
laws


U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico



and regulations. We did not use unsupported allegations by the complainant/offeror or
statements by Boston Regional Office personnel to determine whether a condition of
improper procurement conduct existed or did not exist. In addition, in our consideration
of whether former Job Corps employees are working for the incumbent contractor, we
determined this to refer to current employees of the incumbent contractor who had a
management role and were involved in the proposal for the contract to which the
allegations applied.

Criteria
We used the following criteria to perform this audit:

   •   Federal Acquisition Regulation
   •   Department of Labor Acquisition Regulations
   •   Job Corps Procurement Compendium
   •   Request for Proposal No.1-JC-05-PR




 22                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico


                                                                           APPENDIX C
ACRONYMS AND ABBREVIATIONS

DOLAR                    Department of Labor Acquisition Regulations

FAR                      Federal Acquisition Regulation

FOIA                     Freedom of Information Act

JC                       Job Corps

OIG                      Office of Inspector General

OA/CTS                   Outreach and Admissions/Career Transition Services

PR                       Puerto Rico

RFP                      Request for Proposal




U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 26-06-002-01-370
Boston Regional Office Procurement of Job Corps Center
Operator and Service Providers in Puerto Rico




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 24                                   US Department of Labor—Office of Inspector General
                                                        Report Number: 26-06-002-01-370
                                            Boston Regional Office Procurement of Job Corps
                                          Center Operator and Service Providers in Puerto Rico


                                                                   APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT
(Note: The draft report was issued under report number 26-06-001-01-370. The
final report is numbered 26-06-002-01-370.)




U.S. Department of Labor—Office of Inspector General                                     25
Report Number: 26-06-002-01-370
